U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 10, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michelle Valent v. Andrew M. Saul, Commissioner of Social Security,
S.CtNo. 19-221

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 16,
2019, and placed on the docket on August 20, 2019. The government's response is due on
September 19, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 21, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-022 1
VALENT, MICHELLE
ANDREW M. SAUL, COMMISSIONER OF SOCIAL
SECURITY

ANTHONY T. CASO
CHAPMAN UNIVERSITY
FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
714-628-2650
CASO@CHAPMAN.EDU
FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, 1NC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
ADAM R.F. GUSTAFSON
BOYDEN GRAY & ASSOCIATES
801 17TH ST. NW
#350
WASHINGTON, DC 20006
202-955-0620
GUSTAFSON@BOYDENGRAYASSOCIATES .0
OM

KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROS WELL, GA 30075-7509
770-977-2131
KHERMANN@SOUTHEASTERNLEGAL.ORG

